September 05, 2003
Audit Report No. 03-037


The FDIC’s Implementation of the USA
PATRIOT Act
                                              TABLE OF CONTENTS

BACKGROUND ................................................................................................................1

     PATRIOT Act Expands BSA Requirements.............................................................2

     Title III of the PATRIOT Act .....................................................................................3

     The Treasury Department Has the Lead Role in Implementation .........................4

     DSC Monitors Institutions’ Compliance ...................................................................4

RESULTS OF AUDIT.......................................................................................................6
  FINDING A: BANK SECRECY ACT EXAMINATION PROCEDURES
  COVER SOME PATRIOT ACT REQUIREMENTS..............................................7

     FINDING B: DSC’S PROGRESS IN IMPLEMENTING NEW EXAMINATION
     PROCEDURES ............................................................................................................8

          Treasury Department Progress Impacts the FDIC ............................................9

          Interagency Working Groups and Steering Committee
          Also Play a Role in the FDIC’s Progress ...........................................................11

          Lack of Examination Guidance Limits Assurance That Certain
          PATRIOT Act Provisions Are Being Effectively Implemented ......................11

     CONCLUSION AND RECOMMENDATIONS.....................................................13

     CORPORATION COMMENTS AND OIG EVALUATION................................13

APPENDIXES

APPENDIX I:                OBJECTIVE, SCOPE, AND METHODOLOGY.........................15

APPENDIX II:               COMPARISON OF PATRIOT ACT AND BSA
                           REQUIREMENTS ..........................................................................17

APPENDIX III: ANALYSIS OF TITLE III SECTIONS APPLICABLE
              TO THE FDIC THAT RELATE TO EXAMINATION
              PROCEDURES ................................................................................18
APPENDIX IV:       ANALYSIS OF TITLE III SECTIONS APPLICABLE
                   TO THE FDIC THAT DO NOT RELATE TO
                   EXAMINATION PROCEDURES..................................................19

APPENDIX V:        ACRONYMS ...................................................................................20

APPENDIX VI:       GLOSSARY .....................................................................................21

APPENDIX VII: CORPORATION COMMENTS.....................................................29

APPENDIX VIII: MANAGEMENT RESPONSES TO RECOMMENDATIONS...33
or intended to facilitate, the commission of a criminal offense.4 The PATRIOT Act broadens
authority and required regulations to combat money laundering that were already established
under the Bank Secrecy Act (BSA)5 of 1970, codified to 31 U.S.C. Section 5311 et seq. by
specifically amending that Act. The BSA’s implementing regulation, 31 Code of Federal
Regulations (C.F.R.) 103, is used to aid law enforcement agencies in the investigation of
suspected criminal activity, ranging from income tax evasion to money laundering by organized
crime. Congress enacted the BSA to prevent banks and other financial service providers from
being used as intermediaries for, or to hide the transfer or deposit of money derived from,
criminal activity.6

The BSA consists of two parts—Title I, Financial Recordkeeping and Title II, Reports of
Currency and Foreign Transactions.

        •     Title I authorizes the Treasury Department to issue regulations requiring insured
              financial institutions to maintain certain records related to financial transactions.

        •     Title II directs the Treasury Department to prescribe regulations governing the
              reporting of certain transactions by and through financial institutions in excess of
              $10,000 into, out of, and within the United States. A financial institution must file a
              Currency Transaction Report (CTR) with the Internal Revenue Service for each cash
              transaction over $10,000 or multiple cash transactions by an individual in one
              business day aggregating over $10,000.7


PATRIOT Act Expands BSA Requirements

The PATRIOT Act expands the Treasury Department authority to regulate the activities of
United States financial institutions, particularly their relations with individuals and entities with
foreign ties.

More specifically, the PATRIOT Act:

        •    Expands requirements under the BSA, including requirements related to due
             diligence8 for certain types of bank accounts, including correspondent9 and



4
  More specifically, money laundering is the process by which criminals or criminal organizations seek to disguise
the illicit nature of their proceeds by introducing them into the stream of legitimate commerce and finance.
5
  The Bank Secrecy Act of 1970, also known as the Currency and Foreign Transactions Reporting Act, requires
financial institutions to maintain appropriate records and file certain reports that are used in criminal, tax, or
regulatory investigations or proceedings.
6
  Bank Secrecy Act/Anti-Money Laundering, Comptroller’s Handbook, dated September 2000.
7
  In addition, as noted in the OIG’s report entitled Examination Assessment of Bank Secrecy Act Compliance, Audit
Report Number 01-013, dated March 30, 2001, BSA requires financial institutions to file Suspicious Activity
Reports (SARs) with the Treasury Department when suspected money-laundering activity or BSA violations occur.
8
  For the PATRIOT Act, due diligence includes policies, procedures, and controls that are reasonably designed to
detect and report instances of money laundering.
9
  An account established by a covered financial institution to receive deposits from, or make payments or other
disbursements on behalf of, a foreign financial institution.

                                                        2
             concentration10 accounts; requirements related to verification of customer
             identification; and anti-money laundering procedures.

         •   Expands the United States anti-money laundering umbrella to industries not
             previously subject to this type of regulation, such as other service providers that are
             not insured by the FDIC, including redeemers and sellers of money orders and
             travelers’ checks, check cashers, and currency retail exchanges.11

         •   Marks the first time the United States has taken its money laundering regulations
             offshore in order to monitor foreign branches of United States banks and foreign
             institutions operating in the United States.

         •   Expands criminal sanctions already included in the BSA by increasing civil and
             criminal penalties for money laundering.12

These provisions are intended to facilitate the prevention, detection, and prosecution of
international money laundering and the financing of terrorism.13


Title III of the PATRIOT Act

The PATRIOT Act has 10 titles that relate to the prevention of money laundering and financing
of terrorism. The scope of our audit covered 1 of those 10 titles—Title III, which is entitled
International Money Laundering Abatement and Anti-terrorist Financing Act of 2001. Title III
consists of 46 sections, which include provisions related to (1) international counter-money
laundering and related measures, (2) BSA amendments and related improvements that
supplement the United States’ authority to detect money laundering provided under the BSA, and
(3) currency crimes and protection. In addition, Title III provisions include requirements related
to special due diligence, correspondent accounts, concentration accounts, verification of
customer identification, and information sharing. Further, Title III places considerable
responsibilities on insured depository institutions to monitor foreign entities and individuals and
cooperate with law enforcement officials in a timely manner. Under Title III, the FDIC is
responsible for monitoring compliance with the PATRIOT Act by the financial institutions that it
supervises.14


10
   Any internal account established by the bank to facilitate the processing and settlement of multiple or individual
customer transactions with the bank.
11
   Before the PATRIOT Act, only insured institutions were required, by regulation, to file reports on suspicious
activities. The PATRIOT Act amended the BSA to require all financial institutions, as defined by the BSA, to have
a formal anti-money laundering program.
12
   Civil and criminal money penalties may be an amount equal to not less than 2 times the amount of the involved
transaction, but not more than $1 million, on any financial institution or agency that violates provisions of Title 31,
U.S. Code, that (1) govern due diligence requirements for United States private banking and correspondent bank
accounts involving foreign persons or (2) prohibit correspondent accounts with foreign “shell” banks.
13
   Terrorism includes acts that violate criminal laws of the United States, attempt to coerce civilians or the
government, or involve some effect upon the government by mass destruction, assassination, or kidnapping.
14
   The FDIC is the primary federal regulator of state-chartered institutions that are not members of the Federal
Reserve System (FRS). According to the FDIC’s Letter to Stakeholders, 2nd Quarter 2003, the number of state-
chartered institutions that are not members of the Federal Reserve System totaled 5,338.

                                                           3
The Treasury Department Has the Lead Role in Implementation

The Treasury Department is assigned the vast majority of the tasks associated with implementing
the PATRIOT Act and, accordingly, has the lead role in implementing the Act. The PATRIOT
Act is implemented through the Treasury Department’s rulemaking process. More specifically,
the Treasury Department, through its Financial Crimes Enforcement Network (FinCEN), issues
proposed, interim, and final rules to implement the Act.15 Alternatively, the Treasury
Department, through FinCEN, may issue joint rules with the:

          •   Office of the Comptroller of the Currency (OCC),16
          •   Office of Thrift Supervision (OTS),17
          •   Board of Governors of the Federal Reserve System (FRB),18
          •   FDIC,
          •   National Credit Union Administration (NCUA),19
          •   Commodity Futures Trading Commission (CFTC),20 and
          •   Securities and Exchange Commission (SEC).21


DSC Monitors Institutions’ Compliance

The FDIC’s authority to examine the financial institutions that it supervises for compliance with
the PATRIOT Act, specifically, Title III provisions, derives from statutory authority and
Treasury Department regulations. Section 8 of the Federal Deposit Insurance Act (FDI Act),
codified to 12 U.S.C. 1818, requires the FDIC to:

         •    prescribe regulations requiring regulated institutions to establish and maintain
              procedures reasonably designed to ensure and monitor compliance with the BSA and

         •    review such procedures during the course of FDIC examinations.

Additionally, although overall authority for BSA enforcement and compliance remains with the
Treasury Department, its regulations delegate authority to bank regulatory agencies, including
the FDIC, to examine banks for compliance.


15
   The Treasury Department’s FinCEN, established in 1990, oversees and implements policies to prevent and detect
money laundering. In addition, the administration of the BSA, which authorizes the Treasury Department to require
financial institutions to file certain reports and keep certain records of financial transactions, (e.g., suspicious
activity reports, currency transaction reports, reports of cross-border currency transportation, and reports relating to
foreign bank and securities accounts), is the primary regulatory activity of FinCEN.
16
   OCC regulates national banks and federally chartered branches and agencies of foreign banks.
17
   OTS regulates savings and loan or savings associations and thrift holding companies.
18
   The FRB regulates state-chartered banks that are members of the FRS. The FDIC and the FRB coordinate
guidance for the examination of state-chartered financial institutions with the Conference of State Bank Supervisors
(CSBS).
19
   NCUA charters and supervises federal credit unions.
20
   CFTC regulates the commodity futures and option markets in the United States. A commodity futures contract is
an agreement to buy or sell a specific commodity at a specific price in the future. An option on a futures contract
gives the buyer the right to convert the option into a futures contract.
21
   SEC regulates the securities industry, including stock exchanges, broker-dealers, investment advisors, mutual
funds, and public utility holding companies.

                                                           4
BSA violations are subject to supervisory enforcement actions such as Cease and Desist orders22
as well as civil monetary penalties. For instance, the FDI Act authorizes the regulatory agencies
to issue Cease and Desist orders. Those orders can be issued if a regulated institution fails to
establish and maintain adequate procedures related to BSA or to correct problems with the
procedures after an agency has notified the institution that problems exist. In addition,
regulatory agencies may impose civil money penalties for violations of Cease and Desist orders.

Section 326.8(b) of the FDIC’s rules and regulations, codified to 12 C.F.R. 326.8, requires
FDIC-supervised institutions to develop and administer a program to ensure compliance with the
BSA and its implementing regulation 31 C.F.R 103. Financial institutions’ boards of directors
must approve the program and document that approval in writing. At a minimum, financial
institutions must implement a program that includes: (1) a system of internal controls,
(2) independent testing for compliance with the BSA and its implementing regulation 31 C.F.R.
103, (3) designation of the individual(s) responsible for coordinating and monitoring compliance
with the BSA, and (4) training in BSA requirements for appropriate personnel.

Within the FDIC, examination authority has been further delegated to the DSC. According to
the FDIC Case Managers Procedures Manual, the FDIC should incorporate a BSA review at
each onsite examination, generally interpreted to mean each safety and soundness examination.
In response to the BSA, the FDIC has developed comprehensive examination procedures to use
during its safety and soundness examinations.23 Those procedures are included in a DSC
examination module, dated February 2001, and are used to determine whether financial
institutions properly implement BSA provisions and to independently identify instances of
potential money laundering. During safety and soundness examinations, DSC examiners are
required to determine whether a financial institution’s management has done the following:

        •     Established adequate policies and procedures in accordance with anti-money
              laundering laws and regulations.

        •    Developed a system to identify large currency deposits.

        •    Identified, investigated, and reported suspicious transactions.

        •    Assigned responsibilities for ongoing compliance with BSA and financial
             recordkeeping regulations to a qualified person.

        •    Established an adequate BSA training program for employees.

        •    Performed internal reviews and independent audits to identify potential deficiencies
             in the BSA program.

22
   A Cease and Desist order is a formal enforcement action issued by financial institution regulators to a bank or
affiliated party to stop an unsafe or unsound practice or violation. The order may be terminated when the bank’s
condition has improved and the action is no longer needed or the bank has materially complied with the terms of the
order.
23
   DSC uses a risk-focused examination program designed to focus examination resources on areas that present the
greatest risk to insured institutions. DSC examiners conduct a risk-scoping and pre-examination process to
determine appropriate levels of risk to assign to each functional area, including BSA compliance. Based on that
assessment, examiners determine the most appropriate examination plan for each financial institution.

                                                         5
A bank's failure to comply with the BSA or a bank's involvement in money laundering can
endanger its reputation, impact its capital and earnings, negatively reflect on the bank's
management, and result in regulatory sanctions. Examinations that identify cases in which a
bank has knowingly and willfully violated the BSA are referred, at the recommendation of the
FDIC’s regional offices, directly to the Treasury Department and, in some instances, to a United
States Attorney. In addition, to coordinate the investigation of possible criminal misconduct,
DSC notifies the FDIC OIG of recommendations for financial institutions to file SARs or when
DSC prepares a SAR.

To assist the DSC in its monitoring process, the FDIC issues regulations, Financial Institution
Letters (FILs),24 and other guidance to financial institutions that it supervises; updates FDIC
examination and training materials; and ensures that DSC examiners are adequately trained to
monitor compliance with the PATRIOT Act. In addition, the FDIC participates in interagency
working groups that (1) coordinate with other regulatory agencies and (2) ensure consistency of
examination procedures used to monitor compliance by state-chartered financial institutions.


RESULTS OF AUDIT

The FDIC’s existing BSA examination procedures either partially or fully cover six of the eight
anti-money laundering subject areas required by Title III of the PATRIOT Act and do not
address the remaining two areas included in Title III. (See Finding A—Bank Secrecy Act
Examination Procedures Cover Some PATRIOT Act Requirements). With respect to those
Title III provisions that require new or revised examination procedures, DSC has coordinated its
efforts with other regulatory agencies and began drafting new or revised examination procedures
in October 2002, as deemed necessary, to implement the provisions. DSC has continued its
efforts to draft new or revised examination procedures with updates made to those procedures as
recently as April 2003. However, DSC has not yet issued new or revised examination
procedures because it either is waiting for the Treasury Department to issue final rules
implementing Title III provisions or is coordinating the issuance of uniform procedures with an
interagency steering committee. This delay in issuing procedures is particularly a concern where
the Treasury Department issued final rules related to:

         •   the prohibition on U.S. correspondent accounts, actions to deter money laundering,
             and the improvement of information sharing (September 2002) and

         •   the verification of customer identification (May 2003).

At the time we completed our field work, DSC expected to issue new or revised interagency
examination procedures no later than September 30, 2003, in accordance with a corporate
performance objective described in Appendix I.25 However, the lack of examination procedures
to determine full compliance with Title III provisions limits assurance that DSC examiners are
assessing institutions’ full compliance with the PATRIOT Act and that the institutions are taking

24
   The FDIC uses FILs to correspond with financial institutions that it supervises. FILs may be issued for a variety of
reasons, including notification of PATRIOT Act requirements and other issues of principal interest to those
responsible for operating a bank or savings association.
25
   DSC’s response to our draft report, included as Appendix VII, indicated that the interagency procedures will be
delayed beyond September 30, 2003.

                                                          6
steps to implement all Title III provisions that are intended to facilitate the highest level of
prevention, detection, and prosecution of international money laundering and the financing of
terrorism. (See Finding B—DSC’s Progress in Implementing New Examination Procedures).


FINDING A: BANK SECRECY ACT EXAMINATION PROCEDURES COVER SOME
PATRIOT ACT REQUIREMENTS

Some of the Title III provisions included in the PATRIOT Act expand existing requirements
under the BSA. Because DSC’s examinations include procedures to determine compliance with
the BSA, financial institutions regulated by the FDIC are already monitored to determine
compliance with PATRIOT Act provisions, to some degree. As outlined below, BSA
examination procedures partially cover subject areas included in five Title III Sections—312,
313, 319, 325, and 326. In addition, existing BSA examination procedures cover all
requirements of the subject area in Section 352 of Title III. Accordingly, DSC will continue to
use existing BSA examination procedures, included in its Examination Documentation (ED)
Modules, as a foundation for its new or revised examination procedures to determine compliance
with the PATRIOT Act, Title III provisions.

        •    Section 312—Special Due Diligence—BSA examination procedures include steps to
             review a bank’s due diligence on private banking customers and internal
             correspondent banking relationships. The April 2003 draft revisions that DSC has
             made to its examination procedures26 based on PATRIOT Act provisions include
             steps for examiners to determine whether financial institutions implement due
             diligence policies, procedures, and controls.

        •    Sections 313 and 319—Prohibition on U.S. Correspondent Accounts—Existing BSA
             examination procedures include steps to evaluate the bank’s system to identify
             suspicious activity in foreign correspondent accounts. The April 2003 draft revisions
             to examination procedures based on PATRIOT Act provisions include steps for
             examiners to confirm that the financial institution has obtained required
             documentation on foreign correspondent accounts within 30 calendar days after the
             date the account is established. The documentation should verify that the foreign
             correspondent bank is not a foreign shell bank and that the U.S. correspondent
             account is not used to indirectly provide services to foreign shell banks.
             Documentation should also describe the bank’s procedures for closing or terminating
             foreign correspondent accounts, re-certifying required documentation, and responding
             to written requests from federal law enforcement officers.

        •    Section 325—Concentration Accounts—BSA examination procedures include steps
             to review a bank’s “special use” or “concentration” accounts. Those procedures
             include confirming that financial institutions assess the adequacy of internal controls

26
  The FDIC began revising its examination procedures related to Title III provisions during October 2002, with most
recent revisions made during April 2003. Those revisions have not yet been finalized and are being reviewed by and
coordinated with the FDIC-FRS-CSBS Steering Committee For Risk-Focused Supervision Examination Procedures
and Supporting Software. The FDIC’s participation on and results of the Steering Committee are discussed in detail
in Finding B.


                                                        7
           that have been implemented to ensure the proper use of special use/concentration
           accounts and reviewing the nature of account activity for any suspicious or unusual
           activity. The April 2003 draft revisions to examination procedures include steps for
           examiners to confirm that bank policy prohibits (1) customers from directing the
           movement of funds through special use accounts and (2) bank employees from
           disclosing the existence of a special use account to customers.

       •   Section 326—Verification of Identification—BSA examination procedures include
           steps for reviewing bank account opening procedures and customer due diligence
           guidelines. The April 2003 draft revisions to examination procedures due to
           PATRIOT Act provisions include steps for examiners to confirm that the financial
           institution’s board adopts a written customer identification program for new accounts
           that includes (1) required customer identification information, (2) identification
           verification procedures, and (3) recordkeeping and retention procedures.

       •   Section 352—Anti-money Laundering Programs—BSA examination procedures
           include steps for examiners to determine whether financial institutions have adopted a
           written anti-money laundering program. The procedures include steps to determine
           whether the programs contain a system of internal controls, an independent testing for
           compliance, a designated qualified individual responsible for coordinating and
           monitoring day-to-day compliance, and training for appropriate personnel. As of
           April 2003, DSC had not drafted any revisions to its current examination procedures
           that relate to anti-money laundering programs. DSC officials stated that no revisions
           are necessary to comply with Title III provisions.

Further, in instances in which the Treasury Department has issued final rules implementing the
Title III provisions—Sections 313, 314, 319, and 326—DSC has issued FILs informing the
institutions that it supervises of the new requirements. DSC has not issued FILs for those
sections for which the Treasury Department has not issued final rules.

Appendix II provides a comparison of the BSA and Title III provisions, illustrates in detail how
existing BSA examination procedures cover some of Title III’s requirements, and provides a
description of expanded coverage, such as amending the FDI Act.


FINDING B: DSC’S PROGRESS IN IMPLEMENTING NEW EXAMINATION
PROCEDURES

DSC has not yet issued new or revised examination procedures to determine whether the
financial institutions it supervises are complying with PATRIOT Act Title III provisions not
fully covered by current BSA examination procedures. DSC has not done so even though the
Treasury Department has issued final rulings for four such provisions. DSC has drafted new and
revised examination procedures to implement Title III provisions. However, DSC is
coordinating the issuance of the procedures with other regulatory agencies and an interagency
steering committee. Thus, DSC does not have complete control over issuance of the interagency
procedures. Until the procedures have been issued and fully implemented by examiners, DSC’s



                                                8
assurance is limited that the financial institutions that it supervises are in compliance with the
PATRIOT Act Title III provisions, except for the one Title III section that is fully covered by
current BSA examination procedures.

DSC initiated its process to issue new and/or revised examination procedures addressing Title III
provisions during October 2002 and has continually made updates to those procedures. The
issuance of those procedures depends heavily on DSC’s association and coordination with three
external entities or groups:

        •   the Treasury Department;

        •   interagency working groups that have included representatives from the OCC, OTS,
            FRB, NCUA, CFTC, and SEC;27 and

        •   the FDIC-FRS-CSBS Steering Committee For Risk-Focused Supervision
            Examination Procedures and Supporting Software, which is composed of
            representatives from the FDIC, FRB, and CSBS.


Treasury Department Progress Impacts the FDIC

The timeliness of DSC’s issuance of examination procedures related to implementing Title III
provisions is dependent, in part, upon the Treasury Department, which is responsible for issuing
rules (proposed, interim, and final) that provide guidance that financial institutions should use to
implement Title III provisions. Those rules are published in the Federal Register. When
published in the Federal Register, the rules provide specifics on the applicability of Title III
provisions, institutions covered under the rules, the effective date of a rule, and an overview of
comments received and considered before publication.

Title III of the PATRIOT Act consists of 46 sections. However, only 8 of those 46 sections
relate to examination procedures. Of those eight sections, only seven require the FDIC to issue
revised or new examination procedures to assess compliance with the Act. DSC’s procedures for
BSA compliance already include steps that fully cover requirements for one of the eight
sections—Section 352-Anti-Money Laundering Programs. Those procedures are used to
determine whether financial institutions have implemented adequate controls related to an anti-
money laundering program.

Of the seven Title III sections that require the FDIC to issue revised or new examination
procedures, 5 sections—312, 313, 319, 325, and 326—require revisions to procedures already
included in BSA examinations. The remaining two sections—311 and 314—are new
requirements and, accordingly, require the FDIC to issue new examination procedures.

        •   Section 311—Special Measures for Financial Institutions. This section gives the
            Treasury Department authority to designate a foreign jurisdiction, institution, class of
            transactions, or type of account as a “primary money laundering concern” and to

27
  Agencies are not always included in discussions for all PATRIOT Act sections. They may be involved only in
discussions that affect institutions that they supervise or apply to them in general.

                                                       9
                 impose certain “special measures” with respect to such jurisdiction, institution, class
                 of transactions, or type of account. Those five special measures include
                 (1) recordkeeping and reporting of certain financial transactions, (2) information
                 relating to beneficial ownership, (3) information relating to certain payable-through
                 accounts, (4) information relating to certain correspondent accounts, and
                 (5) prohibitions or conditions on opening or maintaining certain correspondent or
                 payable-through accounts. DSC’s draft examination procedures include steps for
                 examiners to confirm that the financial institutions have taken appropriate steps to
                 comply with the special measures imposed by the Treasury Department on one or
                 more classes of transactions that are found to be of primary money laundering
                 concern.

            •    Section 314—Cooperative Efforts to Deter Money Laundering.28 This section
                 requires the Treasury Department to issue regulations to encourage financial
                 regulators and law enforcement officials to share information with financial
                 institutions regarding persons reasonably suspected of money laundering activities.
                 DSC’s draft examination procedures include steps for examiners to confirm whether
                 financial institutions have programs to comply with Section 314(a) information
                 requests, which include the following:

                               •    designation of an employee as the contact person responsible for
                                    handling Section 314(a) information requests,

                               •    procedures to ensure that all required records are searched, with
                                    positive hits reported to the Treasury Department’s FinCEN within
                                    designated timeframes, and

                               •   appropriate records to document search results.

Appendix III provides an analysis of the Title III sections that are applicable to the FDIC, the
status of information provided to financial institutions that the FDIC supervises, and the status of
DSC’s development or revision of examination procedures for those sections. Appendix IV
provides an analysis of Title III sections applicable to the FDIC that do not require revision to
existing or issuance of new examination procedures.

The Treasury Department has issued three final rules addressing four of the seven Title III
sections that require DSC to take some type of action related to its examination procedures. In
turn, DSC has issued FILs to institutions that inform them of PATRIOT Act requirements and
the Treasury Department’s final rulings for those four sections. More specifically, DSC issued
FILs related to Sections 313, 314, 319, and 326 of Title III. Although DSC has not issued FILs
for the remaining three Title III sections that require action (Sections 311, 312, and 325), as
previously discussed, it has taken steps towards revising examination procedures or developing
new procedures related to those sections.




28
     Title III Section 314 is also referred to as Information Sharing.

                                                              10
Interagency Working Groups and Steering Committee Also Play a Role in the FDIC’s
Progress

DSC is coordinating its issuance of examination procedures with other regulatory agencies and
an interagency steering committee. DSC has participated in external interagency working groups
that have included the OCC, OTS, FRB, NCUA, CFTC, and SEC. Since December 2001, those
groups have met periodically to discuss the scope, terms, and timing of rules and regulations
related to Title III provisions. In addition, the FDIC is a member of the FDIC-FRS-CSBS
Steering Committee For Risk-Focused Supervision Examination Procedures and Supporting
Software (Steering Committee). According to DSC Transmittal Number 98-097, dated
December 3, 1998, the purpose of that interagency committee is to coordinate efforts to maintain
interagency consistency in examination procedures and oversee the ongoing enhancements to the
supporting software.29

The interagency working groups and Steering Committee have played pivotal roles in identifying
new procedures and revising already existing examination procedures related to the Title III
provisions. DSC made the most recent revisions to the procedures during April 2003 and is
collaborating with the Steering Committee before issuing the final examination procedures for
implementation. DSC will not formally issue and incorporate those procedures into its
examination process until they have been reviewed and approved by the Steering Committee.


Lack of Examination Guidance Limits Assurance That Certain PATRIOT Act Provisions
Are Being Effectively Implemented

DSC has not issued or implemented examination procedures to ensure that financial institutions
are complying with the requirements of four sections of Title III that the Treasury Department
has finalized. Specifically, the Treasury Department issued final rules for three of these four
sections in September 2002 as discussed below.

        •    Sections 313 and 319—Prohibition on U.S. Correspondent Accounts. The Treasury
             Department issued a final ruling on September 26, 2002, requiring that financial
             institutions take reasonable steps to ensure that they are not providing banking
             services directly or indirectly to foreign shell banks. As a result, the FDIC issued a
             FIL on December 11, 2002, informing institutions that it supervises of the new
             requirements for Sections 313 and 319. As discussed earlier, the intent of Sections
             313 and 319 is to prevent money laundering and financing of terrorist activities
             through correspondent accounts maintained by U.S. financial institutions on behalf of
             foreign banks. According to the Treasury Department’s final rule, which became
             effective October 28, 2002, for foreign accounts opened after October 2002, financial
             institutions had 30 days to comply—until the end of November 2002. For accounts
             opened before October 2002, financial institutions had until March 2003 to comply

29
  Software products currently associated with examination procedures include Examination Documentation (ED),
General Examination System (GENESYS), and Automated Loan Examination Review Tool (ALERT). The
Steering Committee also includes a Subgroup on Risk-Focused Examination Procedures responsible for soliciting
recommendations from field examiners, updating the content of examination modules, and distributing the revised
modules to the field.


                                                       11
           with the Treasury Department’s final rule. However, DSC has not issued or
           implemented examination procedures to ensure compliance with Sections 313 and
           319.

       •   Section 314—Information Sharing. The Treasury Department issued a final ruling
           which became effective on September 26, 2002, requiring that financial institutions
           that share information among each other and with federal law enforcement agencies
           comply with certain reporting and recordkeeping requirements. The final rule, among
           other things, establishes a mechanism for law enforcement authorities to
           communicate names of suspected terrorists and money launderers to financial
           institutions in order to promptly locate accounts and financial transactions. After the
           final ruling, the FDIC issued FILs on March 14, 2002, November 27, 2002, and
           December 10, 2002. The March 14, 2002 FIL discussed the interim ruling issued by
           the Treasury Department. The FIL issued on November 27, 2002, notified financial
           institutions of a temporary moratorium on compliance with Section 314 authorized by
           the FinCEN. The FIL dated December 10, 2002, informed financial institutions of
           the new requirements regarding information sharing. Specifically, the FIL stated that
           each financial institution should (1) designate a point of contact and provide that
           point of contact to the Treasury Department and (2) notify FinCEN of the financial
           institution’s intent to share information on suspected terrorist and money laundering
           activities with other financial institutions. Neither the Treasury Department’s final
           rule nor DSC’s FILs designated a date upon which financial institutions had to
           comply with this ruling. Further, DSC has not issued or implemented examination
           procedures to ensure compliance with Section 314.

For the remaining section—Section 326—Customer Identification—the Treasury Department
issued a final ruling on May 9, 2003, requiring institutions to adopt written identification
programs. On May 27, 2003, the FDIC issued a FIL informing the institutions that the FDIC
supervises of the new requirements regarding customer identification programs. As explained
earlier, the section requires financial institutions to implement a customer identification program
to verify the identity of customers who open new accounts. Financial institutions have until
October 1, 2003 to comply with the rule by implementing a customer identification program.
DSC has not issued or implemented examination procedures to ensure compliance with
Section 326.

All four of the provisions are intended to facilitate the prevention, detection, and prosecution of
criminal money laundering activities. For example, Sections 313 and 319 establish several
regulatory mechanisms for controlling activity between U.S. financial institutions and foreign
individuals or institutions. Specifically, the provision prohibits financial institutions from
maintaining correspondent accounts with banks lacking a physical place of business and that are
not subject to regulatory supervision. Section 314 encourages banks to share information among
themselves and with law enforcement agencies concerning suspected money laundering and
terrorist activities in order to facilitate the identification of accounts and transactions involving
suspected terrorists and terrorist groups. Finally, Section 326 is intended to help financial
institutions identify and maintain records of suspected terrorist or terrorist groups. Because of
the significance of these provisions, further delays in implementation of examination procedures
limit assurance that sound programs have been established by FDIC-supervised institutions to
assist in the identification of potential terrorist financing activities.

                                                 12
CONCLUSION AND RECOMMENDATIONS

DSC’s efforts to issue new and/or revised examination procedures that will assess financial
institutions’ compliance with the PATRIOT Act provisions included in Title III are, to some
degree, dependent upon other entities and the DSC’s participation on the Steering Committee.
Further, DSC’s efforts to ensure its examination procedures are consistent with those issued by
other members of the Steering Committee are noteworthy. However, DSC could (1) accelerate
its issuance of examination procedures (even for interim purposes) that relate to Title III
provisions for which the Treasury Department has already issued final rulings—Sections 313,
314, 319, and 326—and (2) establish a mechanism to ensure that for future final rulings issued
by the Treasury Department, the Corporation can more expeditiously issue examination
guidelines concurrently with the Treasury Department’s rulings. The significance of the
PATRIOT Act provisions included in Title III, which are meant to assess vulnerabilities to
terrorists’ financing of activities worldwide, necessitate that financial institutions’ compliance
with those provisions is a priority. Timely issuance of examiner guidance will help ensure
institutions’ full compliance with PATRIOT Act provisions.

We recommend that the Director, DSC:

            (1) Issue interim examination procedures for those sections for which the Treasury
                Department has already issued final rules—Title III Sections 313, 314, 319, and
                326.

            (2) Work with the FDIC-FRS-CSBS Steering Committee For Risk Focused
                Examination Procedures and Supporting Software to issue examination
                guidelines concurrently with the Treasury Department’s issuance of final rules
                for institutions’ implementation of Title III provisions.


CORPORATION COMMENTS AND OIG EVALUATION

On August 26, 2003, the DSC Director provided a written response to the draft report. The
response is presented in Appendix VII to this report. DSC management concurred with both
recommendations.

Recommendation 1: Issue interim examination procedures for those sections for which the
Treasury Department has already issued final rules—Title III Sections 313, 314, 319, and
326.

DSC agreed with this recommendation. DSC issued interim guidance on August 15, 2003,
entitled Bank Secrecy Act Examination Procedures. The guidance, which was effective on the
date of issuance, was distributed to all FDIC examiners.

This recommendation is considered resolved, dispositioned, and closed.

Recommendation 2: Work with the FDIC-FRS-CSBS Steering Committee For Risk
Focused Examination Procedures and Supporting Software to issue examination guidelines


                                                13
concurrently with the Treasury Department’s issuance of final rules for institutions’
implementation of Title III provisions.

DSC agreed with the recommendation. DSC is working with the FRB and the CSBS in the
interagency examiner-guidance process. DSC further stated that the interagency Supervisory
Process Committee suggested that interagency guidance be deferred for various reasons until
after the committee’s November 2003 meeting. These reasons included additional rulemaking
issues related to the USA PATRIOT Act and the length of time required to update the ED
module application. As a result, DSC immediately began the process of issuing interim guidance
to DSC examiners. That guidance was issued August 15, 2003—46 days before the planned
completion date of September 30, 2003. In addition, DSC has a representative member on the
Supervisory Process Committee who will raise the interagency examination guideline
recommendations contained in this report at the next scheduled committee meeting. DSC
expects that action to be completed no later than March 31, 2004.

This recommendation is considered resolved, dispositioned, and closed.

A summary chart showing management’s responses to all recommendations is presented in
Appendix VIII.




                                              14
                                                                                  APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of this audit was to determine whether the Federal Deposit Insurance
Corporation (FDIC) has developed and implemented adequate procedures to examine financial
institutions’ compliance with the USA PATRIOT Act (PATRIOT Act). During this audit, we
reviewed the FDIC’s Division of Supervision and Consumer Protection’s (DSC) efforts to
implement the PATRIOT Act and revise its examination procedures to determine whether
financial institutions comply with the PATRIOT Act.

To accomplish our objective, we held an entrance conference and interviews with DSC officials
in Washington, D.C., and met with DSC officials periodically during the survey. Specifically,
we interviewed officials in DSC’s Special Activities Section who are responsible for
coordinating and monitoring DSC’s efforts related to implementing the PATRIOT Act. We also
interviewed representatives of the FDIC’s Legal Division in Washington, D.C. In addition, we
provided a copy of our draft report to representatives from the United States Department of the
Treasury, Office of Inspector General, to obtain comments on issues included in the draft report
that relate to the Treasury Department.

Further, we reviewed the DSC memorandum entitled FDIC-FRS-CSBS Steering Committee For
Risk-Focused Supervision Examination Procedures and Supporting Software to obtain an
understanding of the purpose, composition, responsibilities, and relationship to revising current
examination procedures and issuing new procedures. We also reviewed FDIC Financial
Institution Letters (FILs) and DSC memoranda to obtain an understanding of guidance provided
to FDIC-regulated institutions and DSC’s safety and soundness examiners. The guidance related
to examination procedures for the PATRIOT Act and Bank Secrecy Act (BSA) compliance.

To gain an understanding of examination procedures that the FDIC uses to determine compliance
with the BSA and PATRIOT ACT, we reviewed the DSC Manual of Examination Policies which
contain DSC policies and procedures related to safety and soundness examinations and its
implementation of the BSA. More specifically, we reviewed examination procedures, included
in the FDIC’s examination module for Anti-Money Laundering/Bank Secrecy Act (February
2001), that are used during the FDIC’s examinations of financial institutions to determine
compliance with the BSA.

In addition, we reviewed examination procedures that DSC drafted in response to PATRIOT Act
provisions. To determine the status of the FDIC’s draft procedures related to the implementation
of the PATRIOT Act, we reviewed procedures that the FDIC had drafted, as of April 2003, and
provided to the FRB for review. We also gained an understanding of the process that the FDIC
uses to issue new examination procedures or revise existing procedures.

Finally, we reviewed applicable Federal Register publications, current news articles, and other
agency and regulator reports and related documents to gain an understanding of banking
regulators’ roles and responsibilities in implementing the PATRIOT Act; determine the status of
the Treasury Department’s rulemaking (proposed, interim, and final rules) related to the
PATRIOT Act; and obtain an understanding of the PATRIOT Act.



                                               15
                                                                                    APPENDIX I

We gained an understanding of the management control activities associated with the
implementation of the PATRIOT Act by reviewing DSC’s policies and examination procedures.
Our testing for FDIC’s compliance with laws and regulations was limited to those sections of the
PATRIOT Act applicable to the FDIC. To determine the relationship between, and similar
requirements of, the PATRIOT Act and the BSA, we reviewed pertinent sections of those Acts in
detail. We also reviewed the OIG’s audit report entitled Examination Assessment of Bank
Secrecy Act Compliance (Audit Report Number 01-013, dated March 30, 2001). We reviewed
that report to obtain an understanding of previous OIG audit work related to BSA.

In addition, we reviewed DSC’s performance measures under the Government Performance and
Results Act, Public Law 103-62 (GPRA). We determined that the FDIC has established a
corporate performance objective related to the PATRIOT Act and identified key milestones for
implementing the PATRIOT Act. Specifically, the performance objective includes the
following:

   •    implement appropriate policy guidelines and examination procedures to ensure
        compliance with provisions of the PATRIOT Act with a planned completion date of
        September 30, 2003 and

   •    implement appropriate systems to capture and transmit financial institution contact
        information to the Financial Crimes Enforcement Network (FinCEN) on an ongoing
        basis.

The limited nature of the audit objective did not require that we assess the possibility for fraud
and illegal acts, and no instances of potential fraud and illegal acts came to our attention. In
addition, because the FDIC has not yet incorporated any new or revised examination procedures
into its safety and soundness examinations, we did not verify computer-processed data.

We reviewed synopses of results of the interagency working groups that the FDIC has
participated in and work related to the PATRIOT Act that the FDIC has undertaken. We also
reviewed the Treasury Department’s, including FinCEN’s, Web site to obtain background
information on the PATRIOT Act and BSA.

In addition, we coordinated with the United States General Accounting Office, the FDIC OIG
Office of Investigations, the OIG Counsel, and the DSC Internal Control and Review Section to
determine whether there were any previous or ongoing audits, reviews, or investigations related
to the implementation of the PATRIOT Act. Based on those contacts, we determined that other
than the OIG’s BSA-related report referenced above, there was no prior or ongoing work related
to the objective of this audit.

Further, we developed fact sheets on PATRIOT Act Title III sections that apply to the FDIC
based on analyses provided by the OIG Counsel and the FDIC Legal Division. We asked the
FDIC Legal Division and two DSC officials who were involved in the interagency discussions to
review those fact sheets to determine the accuracy and applicability of data included in them.
We revised those fact sheets, as appropriate, based on their comments.

We conducted the audit in accordance with generally accepted government auditing standards
from April 2003 through June 2003.

                                                16
                                                                                                                                                         APPENDIX II
                                             COMPARISON OF PATRIOT ACT AND BSA REQUIREMENTS
                                                Included in
                                                BSA Exam
           Title III Sectiona                   Procedures               PATRIOT Act Amendments to BSA
Section 311-Special Measures for Financial             No            Amends BSA to allow the Treasury Department to impose special measures related to foreign
Institutions                                                         jurisdictions, financial institutions, and other accounts identified as primary money laundering
                                                                     concerns.
Section 312-Special Due Diligence                      Yes           Amends BSA to require financial institutions that provide private banking accounts or
                                                                     correspondent accounts for foreign persons to establish due diligence procedures; and requires
                                                                     enhanced due diligence for certain correspondent and private banking accounts.
Section 313-Prohibition on U.S.                        Yes           Amends BSA to prohibit financial institutions from providing correspondent accounts to
                        b                                            foreign banks with no physical presence.
Correspondent Accounts
Section 314-Cooperative Efforts to Deter               No            Requires the Treasury Department to issue regulations to encourage financial regulators and
                  c                                                  law enforcement officials to share information with financial institutions regarding persons
Money Laundering
                                                                     reasonably suspected of money laundering activities.
                                  b                    Yes           Amends BSA to require financial institutions that maintain correspondent accounts for foreign
Section 319-Forfeiture of Funds
                                                                     banks to maintain records regarding foreign banks.
Section 325-Concentration Accounts at                  Yes           Amends BSA to authorize the Treasury Department to issue regulations concerning the
Financial Institutions                                               maintenance of concentration accounts by financial institutions.
Section 326-Verification of Identification             Yes           Amends BSA to require the Treasury Department to prescribe regulations to set minimum
                                                                     standards for identifying customers seeking to open accounts at financial institutions.
Section 327-Consideration of Anti-Money                No            Amends the Bank Holding Company Act and Bank Merger Act to add a consideration factor
                  d                                                  for applications under those Acts.
Laundering Record
Section 352-Anti-Money Laundering                      Yes           Amends BSA to require every financial institution to establish anti-money laundering
         d                                                           programs, and authorizes the Treasury Department to issue regulations for minimum
Programs
                                                                     standards.
Section 353-Penalties for Violations of                  No          Amends BSA civil and criminal penalty provisions to include violation of regulations issued
                                      d                              under Section 21 of the FDI Act.
Certain Recordkeeping Requirements
Section 354-Anti-Money Laundering                        No          Amends 31 U.S.C. §5341(b) to add money laundering related to terrorist funding to the list of
         d                                                           items to be discussed.
Strategy
Section 355-Authorization to Include                     No          Adds a new section 18(w) to the FDI Act to permit any insured depository institution to
                              d                                      disclose the possible involvement of “potentially unlawful activity.”
Suspicions of Illegal Activity
Source: OIG review of BSA examination procedures and PATRIOT Act Title III requirements.
a
 Some of the names of Title III Sections have been abbreviated for the purposes of this table.
b
  Sections 313 and 319 are usually referred to and discussed together because both sections amend 31 U.S.C. §5318.
c
 Cooperative Efforts to Deter Money Laundering is also referred to as Information Sharing.
d
  Sections 327, 353, 354, and 355 do not affect examination procedures. Section 352, although related to examination procedures, is fully covered by BSA procedures.



                                                                                   17
                                                                                                                                                            APPENDIX III
      ANALYSIS OF TITLE III SECTIONS APPLICABLE TO THE FDIC THAT RELATE TO EXAMINATION PROCEDURES
                                                                               Section Requires
                                                            FDIC’s             New Procedures
                                        Status of Rule  Communication           or Revisions to
 Title III    Name of Title III       (Proposed/Interim  to Financial              Existing
 Section                 a                 /Final)b       Institutions            Procedures        Status of FDIC Procedures                          Comments
                 Section
             Special Measures for     Proposed rule                           New examination
    311      Financial Institutions   issued April 2003    No FIL c           procedures            Revisions drafted April 2003d   No final rule issued.
             Special Due              Interim final rule                      Revisions to
    312      Diligence                issued July 2002     No FIL             existing procedures   Revisions drafted April 2003    No final rule issued.
             Prohibition on U.S.      Final rules issued   FIL for each                                                             For foreign accounts opened after October 2002,
             Correspondent            September 2002       section (313 and                                                         banks have 30 days to comply. For accounts
             Accounts/Forfeiture      and December         319) issued        Revisions to                                          opened before October 2002, banks have until
 313/319e    of Funds                 2002f                December 2002      existing procedures   Revisions drafted April 2003    March 2003 to comply.
                                                                                                                                    Establishes procedures that encourage
                                                                                                                                    information sharing between governmental
             Cooperative Efforts                           FILs issued                                                              authorities and financial institutions, and among
             to Deter Money                                March,                                                                   financial institutions themselves. Financial
             Laundering/            Final rule issued      November, and      New examination                                       institutions required to provide federal regulator
    314      Information Sharing September 2002            December 2002      procedures            Revisions drafted April 2003    with a point of contact for information requests.
             Concentration                                                                                                          Banking regulators provided the Treasury
             Accounts at                                                      Revisions to                                          Department a draft of proposed regulations that
    325      Financial Institutions No rule issued         No FIL             existing procedures   Revisions drafted April 2003    have not been published for comment.
                                                           FILs issued
             Verification of        Joint final rule       August 2002 and  Revisions to                                          Financial institutions have until October 2003 to
    326      Identification         issued-May 2003g       May 2003         existing procedures Revisions drafted April 2003 comply.
             Anti-Money                                                                                                           Current BSA examination procedures already
             Laundering             Interim rule-         No final rule,    Procedures already                                    fully address anti-money laundering program
     352     Programs               November 2002         No FIL            require programs.             Not applicable          concerns.
Source: OIG review of PATRIOT Act Title III; FDIC’s FILs, BSA examination procedures, and draft PATRIOT Act examination procedures, as of April 2003; and
applicable publications of the Federal Register.
a
  Some of the names of Title III Sections have been abbreviated for the purposes of this table. bUnless otherwise noted, the Treasury Department is responsible for
issuing rules necessary for enacting the provisions and necessitating compliance by the regulators. cFDIC communicates proposed, interim, and final rules and other
specific guidance through Financial Institution Letters (FIL). dDSC began drafting revisions to existing or new examination procedures during October 2002. The most
recent revisions were made during April 2003. eThe Treasury Department, FDIC, and the other regulatory agencies (Federal Reserve, Office of Thrift Supervision,
Office of the Comptroller of the Currency, Securities and Exchange Commission, and Department of Justice) addressed rules for provisions 313 and 319 together. fFinal
rule issued in December 2002 extended the date for compliance to March 2003. gFinal rule for Section 326 was issued jointly with Federal Reserve, Office of Thrift
Supervision, Office of the Comptroller of the Currency, Securities and Exchange Commission, and Department of Justice.




                                                                                        18
                                                                                                                                                  APPENDIX IV
   ANALYSIS OF TITLE III SECTIONS APPLICABLE TO THE FDIC THAT RELATE TO EXAMINATION PROCEDURES
                                                           FDIC’s
                                       Status of Rule  Communication           Section Requires New
Title III      Name of Title III     (Proposed/Interim  to Financial         Procedures or Revisions to Status of FDIC
Section                   a               /Final)b       Institutions           Existing Procedures     Procedures                             Comments
                  Section
  327        Consideration of        Final rule not       FDIC issued FIL    Does not affect examination   Not applicable   FDI Act Section 18(c) amended. FDIC amended
             Anti-Money              needed. Provision    December 2001      procedures. Refers to                          its Statement of Policy on bank mergers to consider
                               b     amended FDI Act.     and July 2002      applications under Bank                        anti-money laundering record of institutions
             Laundering Record
                                                                             Merger Act.                                    requesting merger approval.
  353        Penalties for           Final rule not       No final rule or   Does not affect examination   Not applicable   Expands BSA civil and criminal penalty provisions
             Violations of Certain   needed. Provision    FIL                procedures.                                    to include violation of regulations issued under
             Recordkeeping           amended BSA.                                                                           Section 21 of the FDI Act.
             Requirements
  354        Anti-Money           Final rule not        No action        Does not affect examination Not applicable Added section to the Treasury Department’s
             Laundering Strategy  needed. Provision required             procedures.                                National Money Laundering Strategy.
                                  amended 31 U.S.C.
                                  5341(b).
  355    Authorization to         Final rule not        No final rule or Does not affect examination Not applicable Section 18(w) of the FDI Act amended – Allows
         Include Suspicions of needed. Provision FIL                     procedures.                                financial institutions to disclose potentially
         Illegal Activity         amended FDI Act                                                                   unlawful activity.
   Source: OIG review of PATRIOT Act Title III; FDIC’s FILs, BSA examination procedures, and draft PATRIOT Act examination procedures, as of April 2003;
   and applicable publications of the Federal Register.
   a
       Some of the names of Title III Sections have been abbreviated for the purposes of this appendix.
   b
    For Section 327 of Title III, the FDIC has issued a FIL discussing the significance of considering anti-money laundering laws and regulations in proposed
   merger transactions. Beginning January 1, 2002, the FDIC, in its evaluation of applications filed under Section 18(c) of the FDI Act, also known as the Bank
   Merger Act, began considering the anti-money laundering record of each involved insured depository institution in deciding the appropriateness of approving
   consent to merge.




                                                                                     19
                                                                                APPENDIX V

                                      ACRONYMS


BSA           Bank Secrecy Act

C.F.R.        Code of Federal Regulations

CFTC          Commodity Futures Trading Commission

CSBS          Conference of State Bank Supervisors

CTR           Currency Transaction Report

DSC           Division of Supervision and Consumer Protection (formerly the Division of
              Supervision)

ED            Examination Documentation Module

FDI Act       Federal Deposit Insurance Act

FDIC          Federal Deposit Insurance Corporation

FIL           Financial Institution Letter

FinCEN        Financial Crimes Enforcement Network

FRB           Board of Governors of the Federal Reserve System

FRS           Federal Reserve System

NCUA          National Credit Union Administration

OCC           Office of the Comptroller of the Currency

OIG           Office of Inspector General

OTS           Office of Thrift Supervision

SAR           Suspicious Activity Report

SEC           Securities and Exchange Commission

PATRIOT Act   USA PATRIOT Act (United and Strengthening America by Providing Appropriate
              Tools Required to Intercept and Obstruct Terrorism Act of 2001)


                                             20
                                                                                             APPENDIX VI



                                      GLOSSARY

          Term                                           Definition
                            The principal purpose of the Act is to (1) regulate acquisition of
                            control of banks by companies and individuals, (2) define and
                            regulate the non-banking activities in which bank holding companies
Bank Holding Company Act
                            and foreign banking organizations with United States operations may
                            engage, and (3) establish procedures for securing approval for bank
                            mergers.
                            The Bank Merger Act includes factors to consider in evaluating bank
                            merger applications, including: (1) financial and managerial
                            resources, (2) prospects of the existing and proposed institutions, and
Bank Merger Act
                            (3) convenience and needs of the community to be served. A merger
                            that might substantially lessen competition or tend to create a
                            monopoly may not be approved.
                            Codified at 31 U.S.C. 5311-5330 and gives the Treasury Department
                            broad powers to implement anti-money laundering regulations on
                            financial institutions; such regulations are implemented by the
                            Treasury Department through 31 C.F.R. 103. The Act consists of
                            two Titles: Title I, entitled Financial Recordkeeping and Title II,
                            entitled Reports of Currency and Foreign Transactions. Title I
Bank Secrecy Act
                            authorizes the Treasury Department to issue regulations that require
                            insured financial institutions to maintain certain records. Title II
                            directed the Treasury Department to prescribe regulations governing
                            the reporting of certain transactions by and through financial
                            institutions in excess of $10,000 into, out of, and within the United
                            States.
                            Bank capital performs several very important functions. It absorbs
Capital                     losses, promotes public confidence, restricts excessive asset growth,
                            and provides protection to depositors and the FDIC insurance funds.
                            A person engaged in the business of a check casher (other than a
                            person who does not cash checks in an amount greater than $1,000
Check Casher
                            in currency or monetary or other instruments for any person on any
                            day in one or more transactions).
                            Congress created the CFTC in 1974 as an independent agency with
                            the mandate to regulate commodity futures and option markets in the
                            United States. The agency protects market participants against
Commodity Futures Trading
                            manipulation, abusive trade practices, and fraud. Through effective
Commission
                            oversight and regulation, the CFTC enables the markets to serve
                            better their important functions in the nation's economy—providing
                            a mechanism for price discovery and a means of offsetting price risk.




                                                  21
                                                                                               APPENDIX VI


                                        GLOSSARY

           Term                                            Definition
                              A financial institution in the United States generally must file a
                              currency transaction record for each transaction in currency over
                              $10,000. A transaction in currency is any transaction involving the
Currency Transaction          physical transfer of currency from one person to another and covers
Record                        deposits, withdrawals, and exchanges or transfers of currency or
                              other payments. Currency is defined as currency and coin of the
                              United States or any other country as long as it is customarily
                              accepted as money in the country of issue.
                              The DSC promotes the safety and soundness of FDIC-supervised
                              institutions, protects consumers’ rights, and promotes community
                              investment initiatives by FDIC-supervised insured depository
                              institutions. The mission of the DSC is to promote stability and
                              public confidence in the nation's financial system by:
Division of Supervision and   •    examining and supervising insured financial institutions to
Consumer Protection (DSC)          ensure they operate in a safe and sound manner, consumers'
                                   rights are protected, and FDIC-supervised institutions invest in
                                   their communities and
                              •    providing timely and accurate deposit insurance information to
                                   financial institutions and the public.

                              One of the key elements considered when assessing capital
                              adequacy. Good earnings performance enables a bank to fund its
Earnings
                              growth and remain competitive in the marketplace while at the same
                              time retaining sufficient equity to maintain a strong capital position.
                              The FDIC, in conjunction with other federal and state regulatory
                              agencies, examines financial institutions to ensure they are
                              conducting business in compliance with consumer protection rules
                              and in a way that minimizes risk to their customers and to the
                              deposit insurance funds. The FDIC is the primary federal regulator
                              of state-chartered banks that are not members of the FRS; the FRB
Examinations
                              regulates state-chartered, member banks; the OCC regulates
                              nationally chartered banks; and the OTS regulates all federally
                              insured thrifts, regardless of charter. The FDIC conducts five
                              categories of examinations: Safety & Soundness, Community
                              Reinvestment Act, Compliance, Information Systems & E-banking,
                              and Trust of its institutions.




                                                    22
                                                                                             APPENDIX VI


                                      GLOSSARY

             Term                                        Definition
                            The FDIC’s Supervision Program promotes the safety and soundness
                            of FDIC-supervised institutions, protects consumers’ rights, and
                            promotes community investment initiatives by FDIC-supervised
                            insured depository institutions.

                            As supervisor, the FDIC performs safety and soundness
                            examinations of FDIC-supervised institutions to assess their overall
                            financial condition, management practices and policies, and
                            compliance with applicable laws and regulations. Through the
                            examination process, the FDIC also assesses the adequacy of
                            management and internal control systems to identify and control
FDIC Supervision
                            risks. Procedures normally performed in completing this assessment
                            may disclose the presence of fraud or insider abuse.

                            The FDIC supervises FDIC-insured state-chartered banks that are
                            not members of the FRS, described as state non-member banks.
                            This includes state-licensed insured branches of foreign banks and
                            state-chartered mutual savings banks. The FDIC also has special
                            examination authority for state member banks that are supervised by
                            the FRB, national banks that are supervised by the OCC, and savings
                            associations that are supervised by the OTS. This authority is
                            exercised in the FDIC’s role as insurer of those institutions.
                            The FDIC’s mission is to maintain the stability of and public
Federal Deposit Insurance   confidence in the nation's financial system. To achieve this goal, the
Corporation (FDIC)          FDIC was created in 1933 to insure deposits and promote safe and
                            sound banking practices.
                            The Federal Reserve, the central bank of the United States, was
                            founded by Congress in 1913 to provide the nation a safer, more
                            flexible, and more stable monetary and financial system. The
                            Federal Reserve is responsible for
                            (1) conducting the nation’s monetary policy;
Federal Reserve System
                            (2) supervising and regulating banking institutions and protecting
                                 the credit rights of consumers;
                            (3) maintaining the stability of the financial system; and
                            (4) providing certain financial services to the U.S. government, the
                                 public, financial institutions, and foreign official institutions.
                            Generally, issued to amend a C.F.R. by adding, removing, or
                            revising text, makes a previously issued proposed rule final, or may
                            take final action without a prior proposed rule being issued. Final
Final Rule                  rules are usually effective at least 30 days after the date of
                            publication, in most cases; at least 60 days from after the date of
                            publication for major rules; or on the date of publication in response
                            to an emergency.




                                                  23
                                                                                                 APPENDIX VI


                                          GLOSSARY

            Term                                             Definition
                                Financial Institution Letters are addressed to the Chief Executive
                                Officers of financial institutions, generally FDIC-supervised
                                institutions, and may announce new regulations, special alerts
Financial Institution Letters   concerning counterfeit financial institutions, new FDIC publications,
                                and a variety of other matters of principal interest, including
                                information related to the PATRIOT Act, to those responsible for
                                operating a bank or savings association.
                                The Financial Crimes Enforcement Network, an office within the
FinCEN                          Office of the Under Secretary (Enforcement) of the Department of
                                the Treasury.
                                Any organization that is organized under the laws of a foreign
                                country; that engages in the business of banking; is recognized as a
                                bank by the banking supervisory or monetary authority of the
Foreign Bank
                                country of its organization or the country of its principal banking
                                operations; and receives deposits during its regular course of
                                business.
                                A foreign bank without a physical presence in any country.
Foreign Shell Bank

                                The term insured depository institution means any bank or savings
Insured Depository
                                association, the deposits of which are insured by the FDIC.
Institution
                                Any bank, including a foreign bank having a branch, the deposits of
                                which are insured in accordance with the provisions of the Federal
                                Deposit Insurance Act, which is not a member of the Federal
Insured Non-Member Bank
                                Reserve System. The term does not include any institution chartered
                                or licensed by the Comptroller of the Currency, any District bank, or
                                any savings association.
                                Interim rules may be issued without prior notice and are effective
                                immediately. The interim rule is designed to respond to an
Interim Rule                    emergency situation and is usually followed by a final rule document
                                confirming that the interim rule is final, addresses comments
                                received, and includes any further amendments.
                                Internal control is an integral component of an organization’s
                                management that provides reasonable assurance of achieving
Internal Control
                                effectiveness and efficiency of operations, reliability of financial
                                reporting, and compliance with applicable laws and regulations.
                                In federal law, money laundering is the flow of cash or other
                                valuables derived from, or intended to facilitate, the commission of a
                                criminal offense. More specifically, money laundering is the process
Money Laundering                by which criminals or criminal organizations seek to disguise the
                                illicit nature of their proceeds by introducing them into the stream of
                                legitimate commerce and finance. Federal authorities attack money
                                laundering through regulations, criminal sanctions, and forfeiture.




                                                      24
                                                                                                  APPENDIX VI


                                         GLOSSARY

           Term                                              Definition
                               The National Credit Union Administration (NCUA) is the
                               independent agency that charters and supervises federal credit
National Credit Union
                               unions. NCUA operates the National Credit Union Share Insurance
Administration
                               Fund, insuring the savings of 80 million account holders in all
                               federal credit unions and many state-chartered credit unions.
                               The Office of the Comptroller of the Currency established in 1863,
Office of the Comptroller of   as a bureau of the U.S. Department of the Treasury, charters,
the Currency                   regulates, and supervises all national banks. It also supervises the
                               federal branches and agencies of foreign banks.
                               The Office of Thrift Supervision (OTS) is the primary regulator of
                               all federally chartered and many state-chartered thrift institutions,
Office of Thrift Supervision   which include savings banks and savings and loan associations.
                               OTS was established as a bureau of the U.S. Department of the
                               Treasury on August 9, 1989.
                               A place of business that is maintained by a foreign bank and is
                               located at a fixed address, other than solely an electronic address, in
                               a country in which the foreign bank is authorized to conduct banking
                               activities, at which location the foreign bank: (1) employs one or
Physical Presence
                               more individuals on a full-time basis, (2) maintains operating records
                               related to its banking activities, and (3) is subject to inspection by
                               the banking authority that licensed the foreign bank to conduct
                               banking activities.
                               There are four federal regulators of banks and savings and loan
                               institutions:
                               •    Federal Deposit Insurance Corporation (FDIC) - Primary federal
                                    regulator responsible for state-chartered banks not members of
                                    the Federal Reserve System and state-chartered savings banks.
                               •    Board of Governors of the Federal Reserve System (FRB) -
                                    Primary federal regulator responsible for state-chartered
                                    commercial bank members of the Federal Reserve System.
Primary Federal Regulator
                               •    Office of the Comptroller of the Currency (OCC) - Primary
                                    federal regulator responsible for nationally chartered commercial
                                    banks.
                               •    Office of Thrift Supervision (OTS) - Primary federal regulator
                                    responsible for federally chartered savings and loan associations,
                                    federal savings banks, and state-chartered savings and loan
                                    associations.

                               An account (or any combination of accounts) that (1) requires a
                               minimum aggregate of deposits or funds or other assets of not less
                               than $1 million, (2) is established on behalf of one or more
                               individuals who have direct or beneficial ownership interest in the
Private Banking Accounts
                               account, and (3) is assigned to or is administered or managed, in
                               whole or in part, by an officer, employee, or agent of a financial
                               institution acting as a liaison between the financial institution and the
                               direct or beneficial owner of the account.



                                                      25
                                                                                             APPENDIX VI


                                     GLOSSARY

          Term                                           Definition
                           Proposed rules provide notices to the public of the proposed issuance
                           of rule and regulations. The purpose is to give interested persons an
                           opportunity to participate in the rule making prior to the adoption of
                           the final rules. Proposed rules may suggest changes to agency
Proposed Rule              regulations in the C.F.R.; request public comment on those
                           suggested changes; relate to previously published proposed rules;
                           extend the comments period; announce a public hearing; make
                           available supplemental information, withdraw a proposed rule; or
                           correct a previously published proposed rule.
                           The risk-focused examination process attempts to assess an
                           institution's risk by evaluating its processes to identify, measure,
Risk-Focused Examination   monitor, and control risk. The risk-focused examination process
Process                    seeks to strike an appropriate balance between evaluating the
                           condition of an institution at a certain point in time and evaluating
                           the soundness of the institution's processes for managing risk.
                           The Secretary of the Treasury issues proposed, interim, and final
                           rules in the Federal Register. Most rules are keyed to and codified in
                           the C.F.R.
                           •    Proposed rule: Provides notices to the public of the proposed
                                issuance of rule and regulations; the purpose is to give interested
                                persons an opportunity to participate in the rule making prior to
                                the adoption of the final rules; may suggest changes to agency
                                regulations in the C.F.R. and request public comment on those
                                suggested changes; and may relate to previously published
                                proposed rules, extending the comments period, announcing a
                                public hearing, making available supplemental information,
Rulemaking Process              withdrawing a proposed rule, or correcting a previously
                                published proposed rule.
                           •    Interim rule: Issued without prior notice and is effective
                                immediately; the interim rule is designed to respond to an
                                emergency situation and is usually followed by a final rule
                                document which confirms that the interim rule is final, addresses
                                comments received, and includes an further amendments.
                           •    Final rule: Generally, issued to amend a C.F.R. by adding,
                                removing, or revising text; makes a previously issued proposed
                                rule final; or may take final action without a prior proposed rule
                                being issued. Final rules are usually effective at least 30 days




                                                 26
                                                                                                APPENDIX VI


                                       GLOSSARY

            Term                                           Definition
                             after the date of publication, in most cases; at least 60 days after the
                             date of publication for major rules; or on the date of publication in
                             response to an emergency.

                             These periodic, on-premise examinations help assess an institution's
                             financial condition, policies and procedures, and adherence to laws
Safety and Soundness
                             and regulations. These examinations are a vital tool in protecting the
Examinations
                             financial integrity of the deposit insurance funds and promoting
                             public confidence in the banking system and individual banks.
                             The Secretary of the Treasury or any person duly authorized by the
Secretary                    Secretary to perform the function mentioned.

                             The U.S. Securities and Exchange Commission (SEC) was
                             established in 1934 and has a primary mission to protect investors
Securities and Exchange      and maintain the integrity of the securities markets. The SEC also
Commission                   oversees other key participants in the securities world, including
                             stock exchanges, broker-dealers, investment advisors, mutual funds,
                             and public utility holding companies.
                             Financial institutions that do not have a physical presence in the
                             United States. Physical presence refers to a place of business that is
Shell Banks                  maintained by a foreign bank and is located at a fixed address other
                             than solely an electronic address in a country in which the foreign
                             bank is authorized to conduct banking activities.
                             In-house accounts established to facilitate the processing and the
                             settlement of multiple or individual customer transactions within the
                             bank, usually on the same day. These accounts have several
Special Use Accounts
                             different names, including concentration, omnibus, suspense,
                             settlement, intra-day, sweep, and collection accounts and are widely
                             used in private banking, wire transfer, and other bank departments.
                             A suspicious activity report (SAR) must be filed when there are
                             suspicions that a financial transaction falls into one or more of the
                             following:
                             •    Money is derived from illegal activity, or is intended or
                                  conducted in order to hide or disguise funds or assets derived
                                  from illegal activity.
Suspicious Activity Report
                             •    Is designed to evade BSA requirements, whether through
                                  structuring or other means.
                             •    Serves no business or apparent lawful purpose, and the financial
                                  institution can determine no reasonable explanation for the
                                  transaction after examining all available facts.




                                                    27
                                                                                    APPENDIX VI


                             GLOSSARY

            Term                                Definition
                   An act of terrorism can include both domestic and international
                   actions that (1) involve acts dangerous to human life that violate
                   criminal laws of the United States or of any state; (2) appear to be
                   intended to intimidate or coerce a civilian population, to influence
Terrorism
                   the policy of a government by intimidation or coercion, or to affect
                   the conduct of a government by mass destruction, assassination, or
                   kidnapping; and (3) occur primarily within the territorial jurisdiction
                   of the United States.
                   The United and Strengthening America by Providing Appropriate
                   Tools Required to Intercept and Obstruct Terrorism Act of 2001,
                   also known as the USA PATRIOT Act. The USA PATRIOT Act
                   was enacted on October 26, 2001, and is directed primarily at anti-
USA PATRIOT Act    terrorism. Title III of the Act contains several new anti-money
                   laundering provisions that affect financial institutions. The
                   Secretary of the Treasury has the authority to impose provisions
                   under this Act on financial institutions. The Act expands
                   requirements that are included under the Bank Secrecy Act of 1970.




                                         28
     APPENDIX VII




29
     APPENDIX VII




30
     APPENDIX VII




31
     APPENDIX VII




32
                                                                                                                                               APPENDIX VIII



                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the date of report
issuance. The information in this table is based on management’s written response to our report and subsequent communication with management
representatives.

                                                                                                                                                   Open
                                                                                                                    a                     b
 Rec.                                                                                      Monetary      Resolved:       Dispositioned:             or
                                                                                                                                                         c
Number      Corrective Action: Taken or Planned/Status             Completion Date         Benefits      Yes or No         Yes or No              Closed
  1         DSC agreed with this recommendation.                   August 15, 2003           $0             Yes               Yes                 Closed
            DSC issued interim guidance on
            August 15, 2003, entitled Bank Secrecy Act
            Examination Procedures. The guidance,
            which was effective on the date of issuance,
            was distributed to all FDIC examiners. This
            recommendation is considered resolved,
            dispositioned, and closed.
    2       DSC agreed with the recommendation.                        August 15, 2003         $0            Yes               Yes                 Closed
            DSC is working with the Federal Reserve
            Board (FRB) and the Conference of State
            Bank Supervisors (CSBS) in the
            interagency examiner-guidance process.
            DSC issued interim guidance to DSC
            examiners on August 15, 2003. This
            recommendation is considered resolved,
            dispositioned and closed.
a
Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
           (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
           (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
              management provides an amount.
b
 Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
c
Once the OIG dispositions the recommendation, it can then be closed.



                                                                                 33
